SUPREME COURT OF THE UNITED STATES
NO. 20-1327
PDX NORTH, INC.
v.

Petitioner,

ROBERT ASARO-ANGELO, IN HIS OFFICIAL CAPACITY AS THE COMMISSIONER
OF THE DEPARTMENT OF LABOR AND WORKFORCE DEVELOPMENT OF THE
STATE OF NEW JERSEY,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the brief
in opposition to certiorari contains 8,298 words, excluding the parts of
the document that are exempted by Supreme Court 33.1(d).
I declare under penalty of perjury that the forgoing is true and
correct.

JEREMY M. FEIGENBAUM

Date: July 13, 2021

